<html>
<title> - SAFE FOR AMERICA ACT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ccabbca38cafb9bfb8a4a9a0bce2afa3a1e2">[email&#160;protected]</a>  

 
65-602 PDF

                                 ______

2011

                          SAFE FOR AMERICA ACT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   IMMIGRATION POLICY AND ENFORCEMENT

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

                                H.R. 704

                               __________

                             APRIL 5, 2011

                               __________

                           Serial No. 112-27

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov
                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             DEBBIE WASSERMAN SCHULTZ, Florida
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
[Vacant]

      Sean McLaughlin, Majority Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

           Subcommittee on Immigration Policy and Enforcement

                  ELTON GALLEGLY, California, Chairman

                    STEVE KING, Iowa, Vice-Chairman

DANIEL E. LUNGREN, California        ZOE LOFGREN, California
LOUIE GOHMERT, Texas                 SHEILA JACKSON LEE, Texas
TED POE, Texas                       MAXINE WATERS, California
TREY GOWDY, South Carolina           PEDRO PIERLUISI, Puerto Rico
DENNIS ROSS, Florida

                     George Fishman, Chief Counsel

                   David Shahoulian, Minority Counsel
                            C O N T E N T S

                              ----------                              

                             APRIL 5, 2011

                                                                   Page

                                THE BILL

H.R. 704, the ``SAFE for America Act''...........................     3

                           OPENING STATEMENTS

The Honorable Elton Gallegly, a Representative in Congress from 
  the State of California, and Chairman, Subcommittee on 
  Immigration Policy and Enforcement.............................     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration Policy and Enforcement.............................     6
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................    23

                               WITNESSES

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia
  Oral Testimony.................................................    27
  Prepared Statement.............................................    29
Stephen A. Edson, Principal, SAEdson, LLC
  Oral Testimony.................................................    30
  Prepared Statement.............................................    33
Janice L. Kephart, Director, National Security Policy, Center for 
  Immigration Studies
  Oral Testimony.................................................    35
  Prepared Statement.............................................    37
Johnny Young, Ambassador, U.S. Conference of Catholic Bishops
  Oral Testimony.................................................    44
  Prepared Statement.............................................    47

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration Policy and Enforcement.............     8
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................    24
Material submitted by the Honorable Elton Gallegly, a 
  Representative in Congress from the State of California, and 
  Chairman, Subcommittee on Immigration Policy and Enforcement...    54

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration Policy and Enforcement.............   131
Prepared Statement of Dan Stein, President, Federation for 
  American Immigration Reform....................................   134
Prepared Statement of the National Immigration Forum.............   136
Letter from the Honorable Charles E. Shumer, a U.S. Senator from 
  the State of New York, and Chairman, Senate Judiciary Committee 
  on Immigration, Refugees and Border Security...................   138

 
                          SAFE FOR AMERICA ACT

                              ----------                              


                         TUESDAY, APRIL 5, 2011

              House of Representatives,    
                    Subcommittee on Immigration    
                            Policy and Enforcement,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:24 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Elton 
Gallegly (Chairman of the Subcommittee) presiding.
    Present: Representatives Gallegly, Ross, Conyers, Lofgren, 
Jackson Lee, and Pierluisi.
    Staff Present: (Majority) Andrea Loving, Counsel; Marian 
White, Clerk; and Tom Jawetz, Minority Counsel.
    Mr. Gallegly. Good afternoon. The issues raised by H.R. 
704, the ``SAFE for America Act,'' go to the core of any 
immigration debate.
    That is the integrity of the U.S. Immigration policy.
    H.R. 704 eliminates the visa lottery program under which 
50,000 individuals are chosen completely at random each year to 
receive immigrant visas. The visa lottery, first implemented in 
fiscal year 1995, has long been a subject of concern for those 
of us who believe it is important to have a credible 
immigration system.
    The program is rife with fraud. That was the case in 2003 
when the State Department Inspector General found that ``the DV 
program is subject to widespread abuse.'' That was the case in 
2004 and 2005 when two different State Department Inspectors 
General testified in front of this Subcommittee about the flaws 
in the program. That was the case in 2007 when the Government 
Accountability Office issued a report stating that ``the DV 
program is vulnerable to fraud committed by and against 
applications.'' And that is still the case today, when we will 
hear testimony about high levels of fraud in the program.
    Even the State Department acknowledges the high rate of 
deception throughout the visa lottery. In fact, the Web sites 
for many of the U.S. Embassies around the world include 
diversity visa program fraud alerts, like you can see we have 
on the two screens up here as we speak. This particular alert 
is on the Web site of the London Embassy, but there are similar 
alerts on other U.S. Embassy Web sites.
    And why is fraud such a concern? Because terrorists use our 
generous immigration policy to harm us, and terrorists have 
already used the visa lottery as a means of entering the 
country.
    The Egyptian terrorist who murdered two Americans at LAX in 
2002 was a diversity visa recipient when his wife was selected 
for the lottery. And a Pakistani national who received a 
diversity visa when his parents were selected for the lottery 
pleaded guilty in 2002 to conspiring to wage jihad by plotting 
to destroy electrical power stations, the Israeli consulate, 
and other South Florida targets. He had reportedly told his 
friends he wanted to wage war against the United States.
    But terrorists are not the only people who abuse the visa 
lottery. We will hear testimony today about foreign organized 
crime groups who try their own luck at the lottery. And visa 
lottery applicants and third-party brokers all try to, and do, 
game the system. The visa lottery gives them a great shot at 
winning.
    U.S. Immigration policy should be based on something more 
than just the luck of the draw. It should be secure and it 
should be beneficial to Americans. The visa lottery program is 
neither.
    I am glad to be an original cosponsor of the gentleman from 
Virginia's bill, Mr. Goodlatte, and I look forward to moving 
H.R. 704 toward enactment.
    [The bill, H.R. 704, follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Gallegly. At this time, I would yield to my good friend 
from California, the Ranking Member, Ms. Lofgren.
    Ms. Lofgren. Thank you very much, Mr. Chairman, and thanks 
to our witnesses for their patience; first of all, votes and 
then the delay in getting back. There is a suspicious package 
down in the basement, and everybody had to snake their way 
back. So glad that we are finally here on this hearing.
    As the Chairman said, the diversity visa program was 
established by the Immigration Act of 1990, and the goal was to 
encourage greater diversity in the pool of immigrants that we 
accept each year. The program now provides up to 50,000 visas 
annually to natives of countries from which immigrant 
admissions were lower than 50,000 over the preceding 5 years.
    Applicants for diversity visas are chosen by a computer-
generated random lottery drawing. Each winner is permitted to 
apply for an immigrant visa and can gain lawful permit resident 
status in the United States provided that they pass through the 
screening, because diversity visa winners are subject to all of 
the bars of inadmissibility in the Immigration and Nationality 
Act and must undergo background and security checks that are 
more rigorous than those required for persons entering the 
country by other means such as through the visa waiver program.
    Diversity visa winners must provide biographic and 
biometric information, including fingerprints and a digital 
photograph, pass comprehensive background checks, submit to 
physical and mental examinations, and undergo interviews with 
consular officers abroad before entering the U.S.
    The program represents a small part of our immigration 
system. In fiscal year 2010, only 4.8 percent of the total 
number of persons who obtained lawful permanent resident status 
came through this program, but it also represents an important 
effort that has been largely successful in increasing the 
diversity of legal residents to the United States.
    I recall that this program was originally proposed by then-
Chairman Peter Rodino. He observed that because we have a 
strong family-based immigration system, this reduces the 
opportunity for immigrants to come to this country if they are 
from places that have historically not sent immigrants to the 
United States, and over time, this limits the ability to grow 
and sustain a diverse Nation. In creating the diversity 
program, Mr. Rodino and many others wanted to encourage 
continued immigration opportunities for people from Italy or 
Ireland; but today, as we see, the program continues to help in 
a small way to balance the immigration system.
    In fiscal year 2006, for instance, 40 percent of diversity 
immigrants were from Africa, and 34 percent were from Europe. 
Compare this to the fact that only 3 percent of family and 
employment-based visas went to persons from Africa, and only 8 
percent went to persons from Europe.
    One frequent criticism about the diversity visa program is 
that it is random, that we bring people to the country through 
the program and that they may not have skills or education they 
need to succeed. We know that the program requires applicants 
to have a high school diploma equivalent, or at least 2 years 
of work experience in an occupation requiring training, but we 
actually get more than that.
    In 2003, the State Department described its typical 
diversity visa recipient as a male professional, age 26 to 30, 
holding a university degree. Just yesterday, the Congressional 
Research Service released a report finding that diversity 
immigrants were 2\1/2\ times more likely to report managerial 
or professional occupations than other lawful permanent 
residents in fiscal year 2009.
    And I would ask unanimous consent that the CRS report be 
entered into the record.
    Mr. Gallegly. Without objection.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                               __________
    Ms. Lofgren. This is, of course, not the first time the 
Subcommittee has considered the bill introduced by my friend 
and colleague, Representative Goodlatte. I opposed that bill in 
the 108th Congress and I continue to oppose his measure, 
although I do not dislike him.
    The name of the bill suggests that it increases security 
and fairness, but I don't think it does either. Nothing in the 
bill increases fairness for Americans or for persons who seek 
to emigrate to this country to achieve the American dream. I 
think it does the opposite. The bill just eliminates a small 
immigration program that allows a small percentage of new 
immigrants from underrepresented nations to come and become 
Americans. The program adds to our ethnic and racial diversity, 
which enriches our society and provides the only hope some 
people have to emigrate to the United States lawfully.
    The bill also would not make us any more secure than it 
would if it eliminated any other visa program. Diversity visa 
winners are carefully screened for criminal history or ties to 
terrorism, like any other immigrant. In fact, there is no 
evidence that a terrorist is more likely to enter the U.S. 
under this program than any other U.S. immigration category. 
Given that tens of millions of applications are submitted each 
year for only 50,000 slots, which includes the spouses and 
minor children of lottery winners, this visa program would be 
an incredibly inefficient means of entry for a person who seeks 
to do harm to the United States.
    That is not to say the program is perfect. Both the State 
Department's Inspector General and the GAO issued reports some 
years ago, I might add, highlighting the risk of fraud and 
abuse in the program and the practical resource challenges that 
consular posts faces. The State Department has made significant 
efforts to reduce that risk of fraud, but that doesn't mean we 
shouldn't do more.
    Several years ago, the State Department converted the 
application process from paper to electronic and requires all 
applicants to submit digital photos. Recently, the State 
Department ended the practice of notifying lottery winners by 
mail and now relies entirely on its Web-based system. Consular 
posts provide outreach and education to the community about the 
process and work to combat fraud through the visa adjudication 
process.
    In closing, as I prepared for today's hearing, I was 
reminded that Freddie Adu, the young soccer phenom from Ghana, 
entered the U.S. through the diversity visa program. So did 
Seth Dankar, another native of Ghana, who enlisted as a private 
in the U.S. Army shortly after entering the country on a 
diversity visa. Private Dankar's service was featured in the 
film, ``New American Soldier,'' which highlights the courageous 
work that many immigrants now do in our armed services.
    If there are concerns about this program, we should focus 
on ways to improve it. One idea that was recommended by the 
State Department's IG is that we charge a small application fee 
in order to reduce the prevalence of duplicative applications. 
Now that the system has moved from paper-based applications to 
electronic ones, the cost effectiveness of this anti-abuse 
measure may need to be reassessed.
    I look forward to hearing from our witnesses and working 
with you, Mr. Chairman, to improve this program, and I yield 
back the balance of my time.
    Mr. Gallegly. I thank the gentlelady.
    The Ranking Member of the full Committee, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Gallegly. Well, like Zoe 
Lofgren, I like Mr. Goodlatte but I don't like his bill. And 
the question here might be in this hearing is do we want to 
have another way for people that don't qualify under the kind 
of three-part system of immigration that we have to come into 
this country or do we not.
    What we are faced with is a rather continued attempt to 
eliminate the people least likely to be able to come to this 
country, and so this part 3 of the program is designed to 
create diversity in our immigration population. And so the 
question is, from my point of view, maybe the opponents of this 
program don't want diversity in the first place, which is a 
perfectly valid position to take. It is not a very nice 
position to take, but if we eliminate this system--and by the 
way, the hearings, what have there been? Three of them so far? 
They are never about how to improve the system. It is how to 
eliminate the system and that is not escaping my attention at 
this hearing either.
    The whole idea is let us get rid of the diversity program 
that is the way more African immigrants get into this country 
than any other way. You are entitled to that view, but I don't 
think that this is the way we want to think about our country 
or its policy on immigration.
    That is why I support the comments made by Ranking Member 
Lofgren. We have got to look at how we improve it, and it is 
very interesting to me that we have--our examples are real 
great--somebody, I can wager, is going to mention Hedayet--how 
can you have a terrorist who has to win the lottery first to 
implement his program?
    The other part of this that is very important is that the 
Government Accountability Office has found no documented 
evidence that the diversity visa immigrants program pose a 
terrorist or other threat. So don't let me hear anybody talking 
about terrorism.
    And I will revise the rest of my statement, Mr. Chairman, 
and yield back my time. Thank you.
    [The prepared statement of Mr. Conyers follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. I thank the gentleman.
    And just to take the privilege of the Chair just for a 
second to, if I could, engage both my colleague Ms. Lofgren and 
Mr. Conyers.
    John, my neighbor, my friend, how would you respond to the 
arguments that many make about since this program started there 
have been approximately 800,000 people who have come here under 
the diversity program? Many would argue that that 800,000 that 
have come here would ensure diversity forever through chain 
migration. What would your response to that be, Mr. Conyers?
    Mr. Conyers. But it isn't happening. That hasn't happened--
well, here, you are just giving me back the challenge that I 
posed. If you really want to cut the numbers down in the 
program, you are saying the program is a success, so that leads 
to the same conclusion: We don't need it anymore. I reject that 
out of hand.
    Ms. Lofgren. If I can answer your question, Mr. Chairman, I 
would note from the report we received from the Congressional 
Research Service just yesterday that the predominant immigrant 
through this is a managerial, single-male professional and who 
is not bringing in a spouse and children.
    So also I would note that the brother-sister backlog, as 
you know, is very regressed. I mean, it is decades in some 
cases for people to bring in siblings. So although 
theoretically one could talk about that, in fact, it is not a 
practical measure.
    We can argue whether or not our immigration system should 
seek to have diversity. I recall Senator Kennedy and Chairman 
Rodino were concerned that the Irish and Italians would not be 
present in our immigrant pool, and they thought that was a 
problem, and that really was the origin of this. And it is 
interesting that it is now the diversity that we are seeing is 
from Africa primarily, not completely, because of the way 
patterns of immigration have developed, and absent this visa, 
aside from the refugee program--and I guess some of our 
students that are coming in who I have met, some who are highly 
educated--we wouldn't see much immigration from Africa. And I 
think, you know, the diversity has always made our country 
richer, and it is why we are a proud immigrant Nation. So that 
would be my answer, Mr. Chairman.
    Mr. Gallegly. And again, we shouldn't be debating this. We 
have witnesses here to listen to, but I can't help but respond 
to the only two examples I used in my opening statement about 
two incidents, one at LAX and one at Pakistani National, that 
was advocating jihad here in the U.S. In both of these 
instances, the people that were advocating this were--one was a 
son and one was a husband of the applicant. So that does have 
something to do with that portion of it.
    In any event, we are fortunate today to have four 
exceptional witnesses. Each of the witnesses' written 
statements will be entered into the record in its entirety, and 
I ask each to try to summarize in 5 minutes, if at all 
possible. We got a late start. It is not your fault, but in 
view of that, I want to make sure everyone has a chance to be 
heard. And, if you will, we will provide the lights as kind of 
a guide, but I would appreciate you to try to work as carefully 
and as helpful in that vein as possible.
    The first witness today, of course, the sponsor of the 
legislation, who is obviously a good friend of both of my 
colleagues here, as evidenced in their opening statements. Bob 
Goodlatte, currently is serving his tenth term representing the 
Sixth Congressional District of Virginia. He has been an active 
Member of the House Judiciary Committee since arriving in 
Congress and is currently Chairman of the House Judiciary 
Subcommittee on Intellectual Property, Competition, and the 
Internet.
    Our second witness today is Stephen Anthony--I have known 
Tony--Edson. Mr. Edson is former Deputy Assistant Secretary of 
State for visa services. He was with the State Department for 
28 years and currently serves as principal, SAEdson law firm.
    Our third witness, Ms. Janice Kephart, is the director of 
national security policy at the Center for Immigration Studies. 
She previously served as counsel to the 9/11 Commission. Ms. 
Kephart received her bachelor's degree from Duke and J.D. From 
Villanova law school.
    And our last witness is Ambassador Johnny Young. Ambassador 
Young is executive director of the migration and refugee 
services of the United States Conference of Catholic Bishops. 
He was previously a member of the senior foreign service with 
the rank of career Ambassador and, last, served abroad as the 
U.S. Ambassador to the Republic of Slovenia.
    So you can see we have some very good witnesses this 
afternoon, and we will start with our colleague from Virginia, 
Mr. Goodlatte.

 TESTIMONY OF THE HONORABLE BOB GOODLATTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF VIRGINIA

    Mr. Goodlatte. Thank you, Mr. Chairman, Ranking Member 
Lofgren, Ranking Member Conyers. It is a pleasure to be before 
you today, and I will submit my written statement for the 
record. I wanted to respond to some of the comments made by the 
Ranking Members, who are indeed my friends as well.
    First of all, the United States has the largest and most 
diverse immigration program in the world, and that is even 
without consideration of the visa diversity or visa lottery 
program. When I practiced immigration law prior to my election 
to Congress for more than a decade, I represented individuals 
from more than 70 countries, none of whom were coming in under 
the visa lottery program. They were coming in under family-
related and primarily work-related visas. We also admit people 
to this country based upon refugee status from any country in 
the world where that is a necessity, and we grant political 
asylum. So the opportunity right now for diversity from 
virtually any country in the world exists even without this 
program.
    Secondly, this program has been rejected by the House of 
Representatives twice now, once under a Democratic Congress, 
once under a Republican Congress. The House has voted to 
eliminate this program, and while there have been claims, as 
have just been made, that the program could be improved, during 
the majority in which the gentleman from Michigan was the 
Chairman of the full Committee and the gentlewoman from 
California was the Chairman of the Subcommittee, no hearings 
whatsoever were held on this issue or to improve it.
    I would suggest to you that there are a number of 
legitimate reasons why the program should be eliminated. One of 
those is a national security concern. There is no doubt that 
given the fact that there is no necessity for a family 
relationship, no necessity for a particular job skill, that it 
is easy for an organization like al-Qaeda to submit names--yes, 
it is done at random, but you could submit lots of names from 
individuals who do not have terrorism records, are young 
people, whose names could be drawn. We would be none the wiser 
that not only were they admitted to the country like the 9/11 
hijackers were, but they were admitted to the country on a 
permanent resident status, green card, so they are admitted 
permanently to the country.
    Secondly, there is I think a very strong argument to be 
made that this program is grossly unfair to those people who 
have met the public policy interests of the United States. 
Immigration is a two-way street. There is not a person in this 
room who can't go back a few generations or several generations 
and find somebody in their family who came to the United States 
to better their lives for themselves and their family, but we 
do it based upon having a connection, like having a family 
connection or a job skill that is needed in the country, or 
based upon persecution or a refugee status situation.
    And when we do that, it seems to me very important that we 
recognize that this program allows people to bypass people who 
are on very long waiting lists from countries who have family 
relationships, who have job skills that have been determined to 
be in need in this country, and they watch somebody who gets an 
opportunity to get a visa to come here based upon pure luck. 
That combination I think is not a good one, and that is why I 
have introduced this legislation in the last few Congresses.
    It has been bipartisan each time I have done it, and as I 
say, it has passed both in the 109th Congress as a part of the 
appropriations process and in the--in the 109th Congress, it 
passed as an amendment to H.R. 4437 on the House floor with a 
very strong bipartisan vote; and in the 110th Congress, it 
passed as an amendment to the fiscal year 2008 State Foreign 
Operations appropriations bill.
    So, again, I think there is very strong bipartisan support 
for this legislation. I think that the State Department's 
Inspector General testified before the 109th Congress that the 
program contains significant risks to national security from 
hostile intelligence officers, criminals, and terrorists 
attempting to use the program for entry into the United States 
as permanent residents, quote-unquote. With the tool of legal 
permanent resident status in hand, terrorists and spies would 
have free rein to travel and plan terrorist activities within 
the borders of the United States.
    Our immigration policy should be based upon what the needs 
are of the United States because there are people, millions of 
people, who want to come here for a multitude of of different 
reasons, some good, some bad. We should identify the good 
reasons for bringing people here and have an immigration policy 
that does that and not rely on pure luck to determine who are 
the good people that should be coming to this country.
    Mr. Gallegly. I thank the gentleman.
    [The prepared statement of Mr. Goodlatte follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Mr. Edson.

     TESTIMONY OF STEPHEN A. EDSON, PRINCIPAL, SAEdson, LLC

    Mr. Edson. Chairman Gallegly, Ranking Member Lofgren, 
Ranking Member Conyers, and distinguished Members of the 
Committee, good afternoon and thank you for allowing me this 
opportunity to discuss my experience with the diversity visa 
lottery program.
    All visa categories are subject to attempted fraud by 
applicants interested in entering the United States illegally. 
Applicants misrepresent their identities, their credentials, 
and their intentions every day before consular officers around 
the world, trying to obtain visas that they don't qualify for. 
Most visa categories, particularly for immigrants to this 
country, have very specific requirements that pose barriers for 
applicants attempting to submit a false application.
    Those wishing to obtain a visa fraudulently must first 
convince DHS through the petition process, and then the 
consular officer during an interview, that the requisite 
relationship or employment experience or work situation exists. 
For someone misrepresenting themselves as a doctor or business 
executive or a parent of a U.S. citizen, quite a bit of 
documentation and interview preparation is thus required.
    Contrast this to the diversity visa program where the 
barriers for entry into the program are so low that we ask 
applicants to prove only that they have the equivalent of a 
high school education or 2 years of some sort of a skill-based 
employment, some sort of financial support or job lined up in 
the U.S., and they are otherwise eligible for a visa, the 
standard ineligibility, public health, criminal record.
    Because almost anyone can qualify for entry into the 
program, the cost of committing fraud in this category is quite 
low. The possibility of legal permanent resident status in the 
U.S. makes it well worth the limited amount of time and money 
required to enter the program fraudulently.
    The diversity visa program is subject to attempted fraud 
both by applicants themselves and, worse, by third-party 
brokers and touts who abuse both the visa system and those 
applicants.
    Fraud by applicants includes, among many other things, 
multiple entries, fraudulent claims to education and work 
experience, pop-up spouses or family members, relatives added 
after the application is submitted, and false claims for 
employment or financial support in the United States.
    Fraud and abuse by third parties is just as prevalent and 
can have tragic consequences. Consular officers have seen cases 
of collusion with post office officials--thus, the change that 
Ranking Member Lofgren mentioned--so that notification to 
winners of the lottery are either stolen and used by someone 
else or held hostage until the applicants pay for the release 
of their documents. This was quite common.
    Just as commonly, unfortunately, the applicant may be 
extorted throughout the process; in other words, not just 
forced to pay for the release of their initial documents, but 
forced to pay criminal gangs in order to be allowed to complete 
their application. This problem occurs to a limited extent, a 
much more limited extent, with other visa categories as well, 
but because these diversity visa applicants don't have 
relatives and employers in the United States, they are 
particularly vulnerable.
    Nor is this sort of abuse limited to applicants who choose 
to enter the diversity visa lottery. Consular officers have 
many times seen unscrupulous agents enroll large groups of 
people, including in Bangladesh the phone book, so that they 
could then extort money from the legitimate applicants who 
didn't in fact apply, or from other people that they sell the 
winning slot to as they apply for the visa.
    The State Department's Bureau of Consular Affairs has done 
outstanding work over the years in fighting this fraud in the 
DV program. I should be clear that just because the program is 
rife with fraud, it does not mean that scores of unqualified 
applicants are necessarily entering the United States. The 
refusal rate for the DV cases is quite high, and Consular 
Affairs has done groundbreaking work with facial recognition 
software, electronic application processes, and online data 
analysis tools to weed out fraudulent lottery entries.
    Consular officers in the field are similarly astute in 
interviewing these cases, probing for relationship fraud and 
working hard to validate the few legislative requirements for 
the program. Despite the best efforts of consular officers and 
the State Department, however, the DV program will continue to 
be a special target of attempted fraud. When anyone can play--
and in this program they can, because of the minimum 
requirements for entry--then everyone will, and the cost of a 
fraudulent application is so low that fraud will remain 
prevalent.
    I believe that the SAFE for America Act will solve the 
problem of fraud in the DV program in the only way it is likely 
to work, by eliminating it. Thank you.
    Mr. Gallegly. I thank the gentleman.
    [The prepared statement of Mr. Edson follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Ms. Kephart.

  TESTIMONY OF JANICE L. KEPHART, DIRECTOR, NATIONAL SECURITY 
             POLICY, CENTER FOR IMMIGRATION STUDIES

    Ms. Kephart. Thank you, Chairman Gallegly and Ranking 
Member Lofgren and Ranking Member Conyers, for holding this 
hearing on the DV program today. I would also like to 
acknowledge the leadership of Representative Goodlatte for the 
introduction of this SAFE for America Act.
    My purpose today is to provide my analysis of the DV 
program from my vantage point as a former 9/11 Commission 
counsel, as well as national security policy director at the 
Center for Immigration Studies. My underlying perspective, let 
me make clear, is to treat our borders as they truly are, as a 
geographic demarcation of U.S. sovereign rights, to assure that 
people who seek to come here are who they say they are and will 
not pose a public safety or terrorist threat to American 
citizens.
    Unfortunately, the DV program is a blind spot in our 
immigration system that assures none of these elements well. 
Instead, it can be a terrorist gamble. A successful application 
means an infiltration tactic with little oversight, a 
guaranteed visa, and permanent residency for those already in 
the U.S. or seeking entry from abroad; or a terrorist or other 
criminal can simply wait for a lottery announcement, then hire 
somebody to buy that win, change identities, and voila, they 
are within our immigration system.
    Whatever purpose the DV program sought to be for diversity 
in a pre-9/11 environment, it has been outlived. Today it is a 
national security vulnerability, and let me go over the six 
main reasons why I believe that is the case.
    First, the DV program draws from nations that are state 
sponsors of terror or are known to harbor terrorist 
organizations with overtly stated terrorist intentions toward 
the United States. Eligibility will remain for these countries 
in the 2012 lottery, despite 9/11 and despite serious 
geopolitical shifts in the Mideast today. The four state 
sponsors of terror--Iran Sudan, Syria, and Cuba--received a 
total of 2,588 visas or adjustments of status for the DV 
program in 2010. Nations with active terrorist populations such 
as Yemen and Somalia, as well as governments known to support 
terrorist causes and terrorist travel, such as Venezuela, also 
benefit from the program, as do Afghanistan and Iraq, to name a 
few.
    Again, there are no stopgaps against fraud, as Mr. Edson 
has pointed out, to determine qualifications or properly vet 
identity, or derogatory intelligence, to assure that 
radicalized individuals applying from these nations are not 
entering the U.S. on a DV.
    Second, the program does not include national security 
standards for, or reviews of, participant countries, such as 
visa-waiver countries have to do to maintain their status in 
that program.
    Third, the program is susceptible to serious fraud and 
malfeasance--admitted by the State Department most recently in 
a press conference back in 2010 discussing the 2012 lottery--
both in and out of the U.S. because of its inability to assure 
identities or qualifications of fraud, similar but perhaps even 
worse than that we addressed on the 9/11 Commission regarding 
the processing of Saudi visas pre-9/11.
    Fourth, the program's low applicant standards, combined 
with a computer-generated random lottery drawing, creates an 
invitation to those with nefarious intentions to take advantage 
of blind picks and negligible standards.
    Fifth, the program is known to be exploited for human 
trafficking and the slave trade by crime syndicates, which I 
discuss in greater length in my written testimony, and it 
provides little to promote that straightforward diversity from 
lower immigration countries when we have crime syndicates 
taking advantage of it.
    And lastly, sixth, the program enables those already here 
to stay while their change of status is under consideration, as 
known terrorist Hesham Hedayet did, thus increasing the 
vulnerabilities inherent in the DV program by enabling 
potential criminals and terrorists to embed longer and legally 
in the U.S.
    I would like to spend my remaining time focusing on the 
national security challenges of the DV program, particularly 
Iran. The high numbers of DVs issued to Iranians is perhaps the 
best indication that the DV program is operating in a vacuum 
with little concern for national security. For example, Iran is 
known for its security forces actively seeking infiltration 
from abroad, and creates another opportunity for such 
infiltration. It is hard for us to know who is who when we have 
such little penetration into Iran with our own intelligence 
system. Iran, we know, supported 9/11 hijackers' travel. We 
know they support Hezbollah and currently harbor al-Qaeda, and 
this is only the tip of the iceberg.
    Yet the DV program embraces Iran. Looking closely at the 
2010 worldwide distribution of visa lottery winners, Iran 
received 1,854 visas or adjustments of status. Iran ranked 
ninth in the world of the 173 nations eligible to receive these 
visas, up four places from 2009 where it ranked 13th.
    My conclusion is that the DV program has, unfortunately, 
outlived its usefulness in a post-9/11 world. If this Nation 
seeks more diversity in our immigration population, that is for 
you all to decide, but the DV program is not the route to do 
so.
    Thank you, and I look forward to your questions.
    Mr. Gallegly. I thank the gentlelady.
    [The prepared statement of Ms. Kephart follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Ambassador Young.

            TESTIMONY OF JOHNNY YOUNG, AMBASSADOR, 
              U.S. CONFERENCE OF CATHOLIC BISHOPS

    Mr. Young. Thank you very much, Mr. Chairman. I would like 
to thank you. I would like to also thank Subcommittee Member 
Zoe Lofgren and the Committee Member John Conyers for allowing 
me to testify today. My testimony is on behalf of the United 
States Conference of Catholic Bishops.
    Chairman Gallegly, the U.S. Bishops believe that the call 
for the diversity visa program's elimination is misguided. The 
program is an important facet of not only U.S. immigration 
policy but also U.S. foreign policy interests. Indeed, the 
program benefits the United States' interests both domestically 
and abroad. I will address each of these in turn.
    First, U.S. domestic interests are served by the diversity 
immigrant visa program. The program provides an avenue for a 
diverse population of qualified individuals to emigrate to the 
United States. It reaches beyond those with family or business 
ties in the United States today and creates a mechanism for a 
racially, ethnically, and culturally diverse population to 
lawfully emigrate, that would otherwise not exist under other 
visa programs.
    These eligible immigrants, in turn, benefit from U.S. 
freedom and opportunities while contributing to the economic 
and cultural fabric of our great Nation. In facilitating this, 
the diversity visa program, for most respect for U.S. 
immigration laws, rewarding would-be immigrants who respect our 
laws and seek a lawful means of entry into the United States.
    Second, U.S. foreign policy interests are served by the 
diversity visa program.Mr. Chairman, I served as U.S. 
ambassador to countries as varied as Slovenia and Sierra Leone. 
Today, I am executive director for the largest refugee 
resettlement agency in the world. From these vantage points, I 
have witnessed firsthand U.S. diplomacy and direct aid 
initiatives undertaken to further U.S. national interests 
abroad. These important initiatives are undertaken in part to 
help shape the minds and hearts of those within their borders 
to regard the United States and the democracy it enjoys as a 
beacon of hope and opportunity and, therefore, a leader in the 
world.
    In a 2009 report by the independent task force co-chaired 
by Jeb Bush and published by the Council on Foreign Relations, 
the authors underscored the view of the United States as a 
place of unparalleled openness and opportunity that is crucial 
to the maintenance of U.S. and American leadership. The 
diversity immigrant visa program helps further these 
objectives.
    The diversity immigrant visa program has promoted a 
necessary diversification of the immigrant population in the 
United States. According to the GAO, the data shows that the DV 
program is contributing to the diversification of the U.S. 
immigrant pool. Indeed, well over a half million immigrants 
from countries with low rates of admission to the United States 
have become lawful permanent residents through the program. The 
majority of diversity immigrants are from Africa and Europe, 
two regions with low levels of admission under family- or 
employment-based immigrant visas.
    Mr. Chairman, the diversity immigrant visa program 
generates goodwill and hope among millions across the globe 
ravaged by war, poverty, undemocratic regimes, and opacity in 
government. Through the diversity immigrant visa program, the 
United States makes a counterpoint to that reality, a chance at 
becoming an integral member of an open, democratic society that 
places a premium on hard work and opportunity.
    In fiscal year 2011 alone, there were 12.1 million 
qualified applicants to the diversity immigrant visa program. 
From a diplomacy standpoint, that is a powerful opportunity. 
The U.S. Catholic bishops asks that the Congress maintain 
lawful avenues for immigration to the United States and 
continue to prioritize the diversification of our immigrant 
pool. The diversity immigrant visa is an important facet of 
both our domestic and foreign policy objectives. If we are 
truly concerned about the rule of law, the wholesale 
elimination of legal avenues for immigration such as the 
diversity visa is not the answer.
    Where fraud is present, or security risks the potential, 
Congress should work with the Administration to implement 
measures to combat that fraud as reported by the GAO, and as it 
does with other important government benefit programs.
    Thank you.
    Mr. Gallegly. Thank you, Mr. Ambassador.
    [The prepared statement of Mr. Young follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. I would ask unanimous consent to place into 
the record, without objection, the following items to be made a 
part of the record of the hearing:
    The 2003 Department Office of Inspector General memorandum 
inspection report on the diversity visa program.
    Number two, the 2007 GAO report entitled ``Fraud risks 
complicates States' ability to manage diversity visa program.''
    Number three, March 31, 2011, Irish Times article entitled 
``U.S. Embassy in Dublin warns of widespread visa lottery 
scam.''
    Number four, March 30, 2011, Arab news article entitled 
``U.S. Visa scam gets personal.''
    And finally, a copy of the fraud alert on the Web site of 
the Embassy of the United States in London.
    If there is no objection, those will be made a part of the 
record of the hearing.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. First of all, Bob, in your written testimony 
you referred to a statement before Congress made by the State 
Department's Inspector General in which he stated that the visa 
lottery program contains significant risks to the national 
security of the United States. You also mentioned the case of 
the Egyptian national who was permitted to enter the U.S. 
because his wife was a visa lottery winner. Once in the 
country, the person killed two and injured three at LAX. Can 
you elaborate a little bit on your statement?
    Mr. Goodlatte. Well, I think that there have been reports 
from several sources that have indicated a great concern about 
this. And I think the nature of the concern is that you have 
people who want to come here because they have a family 
reunification issue. They have family that is already here 
petitioning for them. They have a job skill. They have an 
employer who is petitioning for them.
    It is a lot harder for a criminal organization, a terrorist 
organization, or somebody who just wants to come to the United 
States because it is an opportunity for them to engage in some 
kind of activity that we don't want them here for, it is a lot 
harder for them to do that if they have to create that 
connection in the first place. You know, you have to have a job 
skill and an employer who wants them, or they have to have a 
specific family relationship, than if they simply put their 
name into a lottery, as you correctly note, millions of people 
do.
    And while I have no doubt that most of those people are 
wanting to come here for the same reason that other people want 
to come here, those who want to come here for illegitimate 
purposes, including terrorism or criminal activity, have an 
easier time doing that, as Mr. Edson pointed out in his 
testimony, than they do if they have to have that preformed 
connection in order to get the visa in the first place.
    Mr. Gallegly. Mr. Edson, in your statement you mentioned 
the Bangladesh phone book. Can you elaborate a little bit more 
on that as an example of concern?
    Mr. Edson. Certainly. We obviously have no way, or the 
State Department--I have got to get rid of the ``we"--the State 
Department has no way of knowing how often applicants--those 12 
million entrants into the lottery program every year didn't 
actually submit entries on their own behalf. But we know that 
it is quite common for agents to just take personal data on 
existing people and submit it into the lottery as entries. 
Often now, because facial recognition is used and the photos 
are required, picking photographs that are relatively neutral 
so that there is greater opportunity for look-alikes in the 
final win. So then if one of those real people who didn't 
really apply wins a slot in the diversity visa lottery, the 
agent can then sell that slot to somebody who resembles the 
photograph closely enough that they can then steal the identity 
of that other person and complete the application process, and 
there is no preexisting data that is going to rule out that 
individual.
    Mr. Gallegly. Thanks. Ms. Kephart, in your testimony on 
page 6, you discussed how organized crime rings exploit the 
visa lottery program. This is becoming a huge problem in my 
area, in the greater Los Angeles area, having to do with 
Medicare fraud and health care issues, with setting up phony 
clinics and so on and so forth. Does this have any relationship 
to what you are relating to in your testimony, or specifically 
what did your testimony relate to?
    Ms. Kephart. Well, I think you are referring to the use of 
fraudulent and counterfeit documents to support applications in 
general. If that is your reference, yes; we have had Federal 
prosecution have to deal with a number of cases that are 
extremely serious dealing with fraud on the U.S. Side with the 
diversity visa program. One case involved slave trade being 
created out of Africa where young female winners between 10 and 
19 were brought over. They were forced to give up their 
identities and passports and brought over here and had to take 
on new identities.
    There are other pieces of this, though, as well. If you are 
dealing with fraudulent documents--this is something we dealt 
with extensively on the 9/11 Commission--the idea of fraud, the 
idea of looking clean when you are not really clean. And when 
you are dealing with a program like this that does not require 
a lot of identity information on the front end, you can switch 
out identities very easily, as Mr. Edson has done, based on 
fraudulent birth certificates, fraudulent driver's license, 
fraudulent passports on the U.S. side.
    Abroad, there is no way for a consular officer to make a 
determination as to the legitimacy of the high school education 
certificate that you are presenting, the birth certificate, or 
any of the identity information that you are providing. You can 
easily switch that out. Once you do that you are creating a 
fraudulent identity--once you have that in place you have a 
huge vulnerability that is much wider than what you even had 
with the 9/11 situation.
    Mr. Gallegly. Thanks. Thank you very much, Ms. Kephart. Ms. 
Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. I think it is 
important to note that nobody on the Committee is in favor of 
fraud, but the issue is how to preserve diversity in a way that 
works for the country. That is the way I see this question 
anyhow.
    Without this diversity visa, African immigrants would only 
be 3 percent of the immigrants to the United States, I mean 
statistically, and I don't think that is good for the United 
States.
    And, Bob, I hear what you are saying. I always think about 
my grandfather, because he came here when he was 16. He didn't 
have family ties. He didn't have a job. He hadn't finished his 
education, but he wanted to come here. He wanted to be free, 
and you know, what a country, his granddaughter is in Congress. 
So that is part of what this is about. It is to not lose that 
part of our history, but the question is how do we avoid the 
problem.
    Mr. Edson, I don't know the answer to this. Can the State 
Department impose a fee on their own? They don't need 
congressional action to do that, or do they?
    Mr. Edson. I am probably not in the best position to 
answer, but it is my understanding that they do need 
congressional action.
    Ms. Lofgren. That is something that maybe we ought to look 
at, because certainly if there were a fee, that would be a 
deterrent. If we are talking about entering the phone book, 
that would be a very different issue. I think the facial 
recognition and the Web-based stuff is going to help, and maybe 
there are some other ideas to make this work better.
    You know, I think it is always dangerous to legislate by 
anecdote. Certainly, the fellow in Los Angeles who engaged in 
violence was awful; but there was an Egyptian man named Abdel 
Rahman Mossabah who came as a diversity visa immigrant, and he 
uncovered a planned terrorist attack on the New York City 
subway system. He reported it to the New York City Police 
Department, and they went in and they arrested the guys and 
they stopped the plot.
    So I don't think you say, well, that is the reason for the 
diversity visa program any more than the reverse. And I think 
it is worth noting that the GAO's report that has now been 
entered into the record--and this is a quote--``found no 
documented evidence that diversity visa immigrants from [state 
sponsors of terrorism] or other countries pose a terrorist or 
other threat.''
    So we need to, I think, make improvements if we can.
    Ambassador Young, I found your testimony actually pretty 
moving because the diplomatic value of being a beacon of hope 
for the world really is important to the United States. You 
served as Ambassador to a number of Nations. Were you able to 
use this as a tool of diplomacy, and can you expand on your 
experience with those who applied for the lottery program and 
what it means to us in the diplomatic sense, or who they are in 
your experience?
    Mr. Young. Certainly. I found it particularly useful when I 
was in Africa, in Togo in particular. I served in Sierra Leone 
also, but that was prior to the program. In countries that are 
under, you know, oppressive governance and rule, that are very 
impoverished, that has very little to offer its people--
although I didn't go around peddling or advertising for the 
diversity visa in my interaction with young people, with young 
professionals, and what have you--they would ask me: You know, 
what can I do? I am a university graduate, I am a professional, 
or what have you. There is nothing for me to do here. What can 
I do? You know, you come from a great country; is there 
anything you can do for me?
    I said, well, I can't meddle in the visa business as the
    Ambassador, but we do have something called the diversity 
visa program and you can apply for it and you may win, you may 
not, and you keep trying until you do.
    I can cite the case of a woman that I knew in Togo. She was 
educated. She had a sister in the United States who was a U.S. 
citizen. The sister had petitioned for her. She believed that 
the wait would have been about 25 years, and while waiting, she 
applied for the lottery. She didn't win the first few times but 
she won--I think it was about the fourth time around. She came 
to the United States. She brought her teenage son. He finished 
school here in the United States and last year got his MBA at 
Harvard.
    Ms. Lofgren. Wow, quite a story.
    Mr. Young. That was a good one.
    Mr. Gallegly. Mr. Conyers.
    Mr. Conyers. Thank you very much. And, Mr. Ambassador, what 
is the impact of 12 million people all thinking about trying to 
get over here?
    Mr. Young. Well, they are anxious to do that because they 
look to us as their one opportunity for hope and for getting 
out of the situation that they are in. So they think of the 
United States in a very positive way, and I think that is a 
very good thing for our image, and I think that helps us. And 
as I said, the most important thing is that we offer--this is 
an opportunity for hope.
    Mr. Conyers. And, Mr. Edson, your work with State 
Department gave you an opportunity to make a number of 
improvements, and we are grateful to you for that. I wanted to 
thank you. Could you discuss some of the things you got in 
place while you were there?
    Mr. Edson. Certainly, thank you. The program when it began 
was a mail-based program and the amount of mail received was so 
high that the envelopes were actually bar-coded on the outside 
without being opened. Winners were selected sight unseen. In 
the early years there was no way to tell how many entries were 
being submitted by applicants, and, in fact, we knew through 
sampling those first couple of years, there were large numbers 
of duplicate entries, thousands of duplicate entries from 
people who were just using technology and law firms and agents 
and things to help them out.
    The State Department was able to move to an electronic 
application process at a time when people thought that Internet 
penetration wasn't enough. That helped. The facial recognition 
has helped. It was I think one of the earliest uses of facial 
recognition technology in the government to look for duplicate 
entries in the application process, and then some changes in 
rules like the requirement to submit photographs with the--and 
not the application but the lottery entry, the first stage, 
they were required to submit a photograph. That limits some 
identity fraud opportunities.
    It is telling, though, if I can get off the track just 
slightly, the bulk of the money spent on this program is to 
fight fraud in this way instead of to administer the program. 
And that is unlike any other visa work that we do, or we did at 
State, where the bulk of the resources were spent helping 
applicants get through the process. In this case it is almost 
all fraud-related but it has been done.
    Mr. Conyers. I want to thank you for your helpfulness and I 
wanted to turn to attorney Kephart because, you know, 
immigration as a field is a big problem in all of its branches, 
don't you think? I mean, there is a lot of work to be done in 
all the areas and there continues to be more work done in this 
area.
    Ms. Kephart. Yes, Ranking Member Conyers, yes, absolutely, 
you are right.
    Across border security apparatuses, Mr. Edson was one of 
the people I interviewed when I was on the 9/11 Commission, and 
we went across the board, as you know, making lots of 
recommendations and criticisms on border security. Our staff 
monograph ``9/11 and Terrorist Travel'' is a long history of 
problems with the immigration system, and there have been some 
improvements in some areas for sure.
    It is unusual for me, I have to say, to actually be in 
agreement on eliminating something completely. And in this 
particular case, when you run it through the rubric of our sort 
of tiered-analysis we used on the 9/11 Commission, we said two 
things that people up here know very well: Terrorist travel 
documents are as important as their weapons are; and that we 
must assure that people are who they say they are.
    When you look at this, this is not just a nonimmigrant 
visa. This is an immigrant visa. This allows permanent 
residency. This allows you to go freely in and out of the 
United States. So the vulnerability here is high. So for me, 
the security aspect of it on the front end has to be very high. 
Because that is not there, I think that is a vulnerability and 
because we really can't--there are improvements in the system 
for sure in the DV program.
    However, the DV program is not strong enough to really 
assure that people are who they say they are. And when we are 
embracing state sponsors of terror, when we are embracing those 
nations where we know there are radicalized populations, that 
puts I think this on a cusp of--an unfortunate cusp of not 
being a program that assures our national security and really 
gets at the issue that this program is supposed to, which is 
diversity and welcome mat to those who otherwise would not have 
the opportunity to come here.
    Mr. Conyers. Chairman, could I get one additional----
    Mr. Gallegly. With the help of you and Mr. Pierluisi, I 
made a commitment we would finish by 330. So I will be happy to 
do that. Maybe you could help me, Mr. Pierluisi, to yield to 
Mr. Conyers.
    Mr. Pierluisi. I will yield a minute to the ranking.
    Mr. Gallegly. Thank you.
    Mr. Conyers. On a personal--I know you are representing 
here today. But, personally, has your vast experience with 
immigration issues led you to be skeptical, if not negative, 
about the whole immigration system itself?
    Ms. Kephart. Actually, no. I think that the immigration 
system, as problematic as it is, has a lot of potential for 
improvement, and that is how I look at it. You know, I look at 
the southwest border and I see potential that we can actually 
secure that border now. And I look at all the work that has 
been done since 9/11 and the seriousness with which you all 
took our recommendations and that gives me a lot of hope. I 
think if I had thrown in the towel, I wouldn't be sitting here 
right now.
    Mr. Conyers. But you have given up on this one.
    Ms. Kephart. On this particular one, yes, because I think 
it will----
    Mr. Conyers. We want to encourage you. We want to give you 
hope and encouragement. We want to keep hope alive.
    Ms. Kephart. I understand, sir.
    Mr. Conyers. Thank you, sir.
    Mr. Gallegly. Mr. Pierluisi.
    Mr. Pierluisi. Thank you, Chairman. I will just make a 
comment and then wait for your reactions. I just believe that 
messages we send to the rest of the world are very important. 
And by having this program, we are sending a message that we 
continue to welcome immigrants from a diversity of backgrounds 
and nations of origins, and that is an important message. We 
have always been viewed as the land of opportunity and lots of 
people would like to join us; and what is wrong with that?
    I do agree that we have to make every effort to make sure 
no terrorists take advantage of a program like this. We don't 
want any of them here, but I see--and the stats do not support 
this issue we are raising, because when I see the stats, close 
to 800,000 people have come in using this program to our 
country, and I can only see four cases of actual terrorists we 
have spotted. Wow, four cases out of 800,000 people. That is 
the first thing that comes to my mind.
    Another thing, GAO, which was the last objective entity 
looking at this, said there is no evidence of the program being 
abused for purposes of terrorism. So I see that, too.
    And then I see all these enhancements. So my reaction, my 
gut feeling is, let us keep improving it, but let us not send 
the message that we are basically closing this or, you know, 
shutting this door on so many people that dream about joining 
us and making this country even better.
    So now I would like to hear your reactions. I guess I will 
start with Mr. Young; but, obviously, my fellow Member here, I 
would like to hear from you, too, Congressman Goodlatte.
    Mr. Young. Shall I begin?
    Mr. Pierluisi. Yes, I guess I said it in that order.
    Mr. Young. I am with you 100 percent. I believe that the 
program is important to what we try to do worldwide in terms of 
who we are, what we represent, that we do offer hope. We give 
people an opportunity to those who are successful through this 
program to live with dignity and to realize their potential. We 
think the program is good. It is valid. It serves our purpose. 
We say do not eliminate it but let us work and find ways to 
improve its imperfections.
    Mr. Gallegly. Mr. Goodlatte, did you want to respond?
    Mr. Goodlatte. I definitely do. Let me just say, as I 
indicated earlier, I have practiced immigration law before this 
program existed and, at that time, helped people to obtain 
permanent resident status from more than 70 countries. So I 
think that we already are, regardless of this program's 
existence, the most diverse Nation on Earth and it is in part 
because of our immigration policies. But if those policies are 
designed to make this country better, we ought to take into 
account who it is that want to come here, based upon needs that 
we have in the United States, including needs to have the 
people with particular job skills, and including the important 
need to reunify people who have family members who are already 
here. Those should be our priorities. And given the high, high, 
high level of immigration we have, and given the problem that 
we have with the levels of unemployment and so on, we should 
not pick people to come here based on pure luck.
    And I respect the millions of people who want to come here. 
My concern is that basing your future upon whether or not you 
have one in 200 or one in 300, whatever the odds are, the 
chance of having your name picked out is like saying, I am 
going to--you know, I am going to save for the future by buying 
a lottery ticket every week. That is not the best way to 
enhance your own life.
    The program should be based upon people who have something 
the United States needs and want to come here, we want them 
here and they want to be here, not based simply on pure luck, 
chosen at random.
    Mr. Gallegly. The time of the gentleman has expired. I want 
to thank all of the Members for being here today, particularly 
when everyone likes everyone, that always makes it a lot easier 
for the Chair.
    In any event, thank you to all of our witnesses and, 
without objection, all Members will have 5 legislative, days to 
submit to the Chair additional written questions for the 
witnesses, which we will forward and ask the witnesses to 
respond as promptly as they can so the answers can be made a 
part of the record of the hearing.
    Without objection, all Members will have 5 legislative days 
to submit any additional materials for inclusion into the 
record.
    Again, thank you all for attending today, and with that, 
the Subcommittee stands adjourned.
    [Whereupon, at 3:32 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
